              Office of Audits
              Office of Inspector General
              U.S. General Services Administration




           RECOVERY ACT REPORT -


           Contract Administration for Group 10
           Review of PBS’s Limited Scope
           and Small Construction Projects
           Funded by the American Recovery
           and Reinvestment Act of 2009
           Report Number A090184/P/R/R12008
           June 13, 2012




A090184/P/R/R12008
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                    REPORT ABSTRACT
OBJECTIVE                   RECOVERY ACT REPORT -
 Determine if GSA is        Contract Administration for Group 10
 administering the Group    Review of PBS’s Limited Scope and Small Construction Projects
 10 limited scope           Funded by the American Recovery and Reinvestment Act of 2009
 construction contract in   Report Number A090184/P/R/R12008
 accordance with the        June 13, 2012
 Federal Acquisition
 Regulation, General        WHAT WE FOUND
 Services Administration
                            We identified the following during our review:
 Acquisition Manual, and
 American Recovery and      Finding 1 – GSA needs to strengthen its implementation of security
 Reinvestment Act of        measures.
 2009 mandates.             Finding 2 – A subcontractor is not in compliance with the Davis-Bacon Act.
                            Other Observations – We noted untimely aspects of contract administration
                            and the contractor marginally meeting the Limitations on Subcontracting
                            requirement.
                            WHAT WE RECOMMEND
                            Based on our review findings, we recommend that the Public Buildings
                            Service National Capital Region Regional Commissioner:
                               1. Strengthen policies, procedures, and collaboration amongst divisions
                                   to ensure that: all contract employees accessing GSA facilities have
                                   proper security clearances prior to site access and background check
                                   information is shared with and retained by contract and project
                                   management staff.
                               2. Secure physical access at the Group 10 Weaver Building project.
                               3. Review contractor compliance with the Davis-Bacon Act to identify
                                   and correct all violations.
                            MANAGEMENT COMMENTS
Real Property Audit         Management agreed with the audit findings and concurred with the
Office                      recommendations. Appendix B contains management’s response in its
1800 F Street, NW           entirety.
Room 5014 (JA-R)
Washington, DC 20405
(202) 219-0088




     A090184/P/R/R12008                        i
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration

    DATE:             June 13, 2012
    TO:               Julia E. Hudson
                      Regional Administrator, National Capital Region (WA)
                                                ignature of Marisa A. Roinestad
    FROM:             Marisa A. Roinestad
                      Audit Manager, Real Property Audit Office (JA-R)
    SUBJECT:          Recovery Act Report-Contract Administration for Group 10
                      Review of PBS’s Limited Scope and Small Construction Projects
                      Funded by the American Recovery and Reinvestment Act of 2009
                      A090184-53/P/R/R12008

   This report presents the results of our audit of contract administration for the Group 10
   Limited Scope American Recovery and Reinvestment Act of 2009 construction project.
   Our findings and recommendations are summarized in the Report Abstract. Instructions
   regarding the audit resolution process can be found in the email that transmitted this
   report.

   Your written comments to the draft report are included in Appendix B of this report.

   If you have any questions regarding this report, please contact me or the Auditor-In-
   Charge at the following:

Marisa A. Roinestad    Audit Manager       marisa.roinestad@gsaig.gov             (202)273-7241
Anthony Q. Jones       Auditor-In-Charge   anthony.jones@gsaig.gov                (202)273-7242

   On behalf of the audit team, I would like to thank you and your staff for your assistance
   during this audit.




   A090184/P/R/R12008                      ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – GSA needs to strengthen its implementation of security measures......... 2
                 Recommendation 1 ................................................................................. 3
                 Recommendation 2 ................................................................................. 4
                 Management Comments ......................................................................... 4
Finding 2 – A subcontractor is not in compliance with the Davis-Bacon Act. ............. 4
                 Recommendation 3 ................................................................................. 4
                 Management Comments ......................................................................... 4
Other Observations. ................................................................................................... 5


Conclusion................................................................................................................ 6

Appendix A – Purpose, Scope, and Methodology ............................................. A-1


Appendix B – Management Comments .............................................................. B-1


Appendix C – Report Distribution ....................................................................... C-1




A090184/P/R/R12008                                        iii
Introduction
The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the
General Services Administration (GSA) with $5.55 billion for its Federal Buildings Fund
to be used to convert federal buildings into High-Performance Green Buildings as well
as to construct federal buildings, courthouses, and land ports of entry.

One of GSA’s Recovery Act projects involves a $6,159,621 design-build contract to
replace the roofs on the Howard T. Markey National Courthouse (Markey Courthouse)
and the Robert C. Weaver Federal Building (Weaver Building) (Group 10 1). As part of
the Office of Inspector General’s ongoing oversight of GSA’s implementation of the
Recovery Act, we reviewed the administration of this contract. Our objective was to
determine if GSA is administering the Group 10 limited scope construction contract in
accordance with the Federal Acquisition Regulation (FAR), General Services
Administration Acquisition Manual, and Recovery Act mandates.

Work is currently ongoing at the Markey Courthouse and Weaver Building. The Group
10 project entails studying the existing roofs and determining the extent of replacement
needed. The roofs at both buildings are extensive, with the Markey Courthouse
consisting of a library, courthouse tower penthouse, and upper main level roofs, and the
Weaver Building consisting of an office level and penthouse roof. Both buildings are to
have installed Energy Star rated insulated roofing systems. At the Markey Courthouse,
the work items included an integrated photovoltaic energy system to generate electricity
in order to reduce energy consumption and lower operational costs.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
 Group 10 includes the Howard T. Markey National Courthouse (Markey Courthouse) and Robert C.
Weaver Federal Building (Weaver Building).



A090184/P/R/R12008                          1
Results
Finding 1 – GSA needs to strengthen its implementation of security measures.

There is no assurance that GSA’s contract and project management staff fulfilled their
responsibility to ensure contractor personnel had required background checks. This
creates a potential security risk to the buildings, to the occupants of the buildings, and
any sensitive data stored in the buildings. This is particularly true in the case of the
Weaver Building where contractor employees have access to the interior of that facility.

The contract requires that all personnel performing work on the project obtain an “Enter
on Duty” determination before they are granted access to the sites. Additionally, the
contract file states that, “The contractor will not be authorized to proceed with contract
work until all necessary contractor employees have been cleared.” Furthermore, the
Physical Security Criteria for Federal Facilities requires a Construction Security Plan
that addresses access controls such as background checks and security clearances.

In spite of this, we found five contractor employees who may not have undergone
security clearance reviews; GSA’s Credential and Identity Management System had no
records for these individuals. In addition, GSA’s contract and project management staff
had no documentation verifying that they had reviewed the status of other contractor
personnel who were recorded in the Credential and Identity Management System.
However, the tenant agency’s (United States Courts) security officer at the Markey
Courthouse queried the National Criminal Information Center system to determine the
employees’ security status so that contractor personnel could access the facility.

Nevertheless, this situation represents a potential security risk because contractor
personnel had unmonitored access to the Weaver Building. When we performed our
physical observation, we noted that three of the four doors accessing the roof from the
building’s interior were propped open and left unattended after business hours (see
Figure 1). To compound the problem, the security control room monitors for the doors’
surveillance cameras were inoperable. As a result, contractor personnel, who were to
have restricted access to the building (i.e. escorts and limited access via exterior
scaffold stairs), now had unfettered access to the building’s interior. While the tenant
agency’s building manager 2 had the monitors repaired, we are not certain the doors are
continuously secured.




2
 GSA delegated its responsibility for operations and maintenance of the Weaver Building to the
Department of Housing and Urban Development.



A090184/P/R/R12008                             2
     Figure 1 – Unsecured door on Weaver Building rooftop after business hours.




Project management staff informed us that they did not retain security clearance
documentation because it contains sensitive information, such as social security
numbers, and they could not safeguard it because they do not have locked containers.

Recommendation 1

The Public Buildings Service (PBS) National Capital Region (NCR) Regional
Commissioner should strengthen policies, procedures, and collaboration amongst
divisions to ensure that: all contract employees accessing GSA facilities have proper
security clearances prior to site access and background check information is shared
with and retained by contract and project management staff.




A090184/P/R/R12008                    3
Recommendation 2

The PBS NCR Regional Commissioner should secure physical access at the Group 10
Weaver Building project.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendations (see Appendix B).

Finding 2 – A subcontractor is not in compliance with the Davis-Bacon Act.

One of the subcontractors working on the Group 10 roofing project is not in compliance
with the Davis-Bacon Act. The Davis-Bacon Act requires that contractors working on
federally-funded projects pay their employees the locally prevailing wage rates as
determined by the Department of Labor.

In this case, we reviewed the subcontractor’s July 16, 2011, certified payroll and found
that 8 of its 15 employees were paid wages that were below the required minimum
hourly wage rates for Common Laborer, Roofer and Sheet Metal Mechanic.
Underpayments ranged from $0.01/hour to $15.03/hour. For example, the prevailing
wage rate for a Roofer was $34.06/hour; the certified payroll showed a Roofer paid only
$32.00/hour.

The construction manager for the project also noted this problem and reported that
these underpayments spanned four certified payroll periods from the week ending July
9, 2011, through week ending July 30, 2011.

FAR 52.222-7, Withholding of Funds, prescribes that if a contractor does not meet
Davis-Bacon Act requirements, the contracting officer may, after written notice to the
contractor, take such action as may be necessary to cause the suspension of any
further payment until such violations have ceased.

Recommendation 3

The PBS NCR Regional Commissioner should review contractor compliance with the
Davis-Bacon Act to identify and correct all violations.

Management Comments

In its comments, management agreed with the audit finding and concurred with the
recommendation (see Appendix B).




A090184/P/R/R12008                     4
Other Observations

The design phase took 2 months longer than prescribed in the Statement of Work. The
Statement of Work’s construction schedule called for a 4.5 month design phase, from
notice to proceed for design to final submission; 3 however, it took 6.5 months to
complete this phase. The Contracting Officer’s Technical Representative was also
appointed 4 months after issuance of the notice to proceed for construction. The
Contracting Officer’s Technical Representative should have been appointed upon
contract award.

Additionally, the construction contractor is marginally meeting the requirement for 15
percent of the work to be performed by the prime contractor during the test periods
reviewed. Contract clause FAR 52.219-14 Limitations on Subcontracting requires that
for general construction, 15 percent of the cost of the contract (not including materials)
shall be performed by the prime contractor’s own employees. The prime contractor had
performed 15.26 percent of work for the certified payroll periods we tested, although the
project is ongoing. 4




3
  Calculations include the Government’s anticipated time for formal review and approval of required
submissions.
4
  We tested 7 of 29 pay periods (25 percent) that had accumulated at the time of our fieldwork.



A090184/P/R/R12008                              5
Conclusion
GSA needs to strengthen its implementation of security measures and ensure
compliance with the Davis-Bacon Act on the Group 10 construction contract. An
untimely design phase and appointment of the Contracting Officer's Technical
Representative, and marginally meeting the Limitations on Subcontracting requirement,
were also of concern.




A090184/P/R/R12008                    6
Appendix A – Purpose, Scope, and Methodology
Purpose

This review was performed as part of the Office of Inspector General’s ongoing
oversight of the General Services Administration’s (GSA) implementation of the
American Recovery and Reinvestment Act of 2009 (Recovery Act).

Scope

This review covered contract administration for the Group 10 Recovery Act contract, 5 a
limited scope construction project in the National Capital Region.

Methodology

We conducted our review between October 2011 and February 2012. To accomplish
our objectives, we:

      •   Met with GSA contract and project management staff;
      •   Reviewed contract and project management files;
      •   Conducted site visits;
      •   Met with GSA security staff and tenant agency staff; and
      •   Met with GSA Office of Acquisition Policy staff regarding labor relations.

Except as noted below, we conducted the review in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our review objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
review objectives.

The planning for this review is based on the audit plan for oversight of the Recovery Act
projects as well as review guidance being applied to all Limited Scope and Small
Construction Recovery Act projects. A separate guide was not prepared for this project.
As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment. Only the management
controls discussed in the report have been assessed.

Internal Controls

The focus of the review is to determine if GSA is complying with the Federal Acquisition
Regulation, General Services Administration Acquisition Manual, and Recovery Act
5
    Contract Number GS-11P-10-YA-C-0189



A090184/P/R/R12008                         A-1
mandates governing the administration of the Group 10 contract. We evaluated internal
controls over contract administration to the extent necessary to answer the review
objective. Related internal control issues are discussed in the context of the review
findings.




A090184/P/R/R12008                   A-2
Appendix B – Management Comments




A090184/P/R/R12008    B-1
A090184/P/R/R12008   B-2
Appendix C – Report Distribution
Acting Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (P)

Acting PBS Chief of Staff, Public Buildings Service (P)

Regional Recovery Executive, Public Buildings Service, National Capital Region (WP)

National Program Office ARRA Executive, Public Buildings Service (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator, National Capital Region (WA)

Regional Commissioner, Public Buildings Service, National Capital Region (WP)

Regional Counsel, National Capital Region (WL)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Public Buildings Service (PFF)

Audit Liaison, Public Buildings Service, National Capital Region (WPF)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




A090184/P/R/R12008                       C-1
